Audit Report




OIG-14-017
Audit of the Bureau of the Fiscal Service’s Fiscal Years 2013
and 2012 Schedules of Non-Entity Assets, Non-Entity Costs and
Custodial Revenue
January 14, 2014




Office of
Inspector General
Department of the Treasury
                                            DEPARTMENT OF THE TREASURY
                                                   W ASHINGTON, D.C. 20220
            `

     OFFICE OF                                       January 14, 2014
INSPECTOR GENERAL




            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           BUREAU OF THE FISCAL SERVICE

            FROM:                       Michael Fitzgerald
                                        Director, Financial Audit

            SUBJECT:                    Audit of the Bureau of the Fiscal Service’s
                                        Fiscal Years 2013 and 2012 Schedules of Non-Entity Assets,
                                        Non-Entity Costs and Custodial Revenue


            I am pleased to transmit the attached audited Bureau of the Fiscal Service’s (Fiscal
            Service) Fiscal Years 2013 and 2012 Schedules of Non-Entity Assets, Non-Entity
            Costs and Custodial Revenue (Schedules). Under a contract monitored by the
            Office of Inspector General, KPMG LLP (KPMG), an independent certified public
            accounting firm, performed an audit of the Schedules. The contract required that
            the audit be performed in accordance with generally accepted government auditing
            standards and applicable provisions of Office of Management and Budget (OMB)
            Bulletin No. 14-02, Audit Requirements for Federal Financial Statements.

            The following reports, prepared by KPMG, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial
                        Reporting; and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG found:

                    •   the Schedules present fairly, in all material respects, the Fiscal Service’s
                        Non-Entity Assets as of September 30, 2013 and 2012, and the related
                        Non-Entity Costs and Custodial Revenue for the years then ended, in
                        accordance with U.S. generally accepted accounting principles,
                    •   certain deficiencies in internal control that were considered to be a
                        significant deficiency1 (described below), and



            1
              A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
            less severe than a material weakness, yet important enough to merit attention by those charged
            with governance.
Page 2


      •   no instances of reportable noncompliance with laws and regulations tested.

KPMG concluded that Fiscal Service’s general information technology controls do
not provide reasonable assurance that: (1) an adequate security management
program is in place; (2) access to computer resources (i.e., data, equipment, and
facilities) is reasonable and restricted to authorized individuals; (3) changes to
information system resources are authorized and systems are configured and
operated securely and as intended; and (4) incompatible duties are effectively
segregated. Collectively the conditions observed and reported on could compromise
the Fiscal Service’s ability to prevent the possible disclosure of entity-sensitive
information related to Non-Entity Assets, Non-Entity Costs and Custodial Revenue to
unauthorized individuals or entities and ensure the reliability of key systems.

In connection with the contract, we reviewed KPMG’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the Schedules or conclusions about the effectiveness of internal control
or compliance with laws and regulations. KPMG is responsible for the attached
auditors’ reports dated December 20, 2013, and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG did not comply, in
all material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audit at
(202) 927-5076.


Attachment

cc:   Richard L. Gregg
      Fiscal Assistant Secretary
U.S. DEPARTMENT OF THE TREASURY
  BUREAU OF THE FISCAL SERVICE
   Independent Auditors’ Reports and
    Schedules of Non-Entity Assets,
 Non-Entity Costs and Custodial Revenue
      September 30, 2013 and 2012
                            U.S. DEPARTMENT OF THE TREASURY
                              BUREAU OF THE FISCAL SERVICE



                                         Table of Contents



                                                                                      Page

Independent Auditors’ Report                                                            1

Independent Auditors’ Report on Internal Control Over Financial Reporting               3

Independent Auditors’ Report on Compliance and Other Matters                            6

Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue                  7

Notes to the Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue     8

Attachment – Management’s Response                                                     25
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service:

Report on the Schedules

We have audited the accompanying Schedules of Non-Entity Assets of the U.S. Department of the
Treasury’s Bureau of the Fiscal Service (Fiscal Service) as of September 30, 2013 and 2012, and the
related Non-Entity Costs and Custodial Revenue (collectively, Treasury Managed Accounts (TMA),
hereinafter referred to as the Schedules) for the years then ended and the related notes to the Schedules.

Management’s Responsibility for the Schedules

Management is responsible for the preparation and fair presentation of these Schedules in accordance with
U.S. generally accepted accounting principles; this includes the design, implementation, and maintenance
of internal control relevant to the preparation and fair presentation of the Schedules that are free from
material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these Schedules based on our audits. We conducted our
audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and applicable provisions of Office of Management and Budget
(OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and
OMB Bulletin No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about
whether the Schedules are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
Schedules. The procedures selected depend on the auditors’ judgment, including the assessment of the risks
of material misstatement of the Schedules, whether due to fraud or error. In making those risk assessments,
the auditor considers internal control relevant to the Fiscal Service’s preparation and fair presentation of
the Schedules in order to design audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of the Fiscal Service’s internal control over financial
reporting related to TMA. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the Schedules.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                                                                 1
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Schedules

In our opinion, the Schedules referred to above present fairly, in all material respects, the U.S. Department
of the Treasury’s Bureau of the Fiscal Service’s Non-Entity Assets as of September 30, 2013 and 2012,
and the related Non-Entity Costs and Custodial Revenue for the years then ended in accordance with U.S.
generally accepted accounting principles.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our report dated December 20,
2013 on our consideration of the Fiscal Service’s internal control over financial reporting related to TMA
and our report dated December 20, 2013 on our tests of its compliance with certain provisions of laws and
regulations related to TMA. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to provide an
opinion on the internal control over financial reporting or on compliance. Those reports are an integral part
of an audit performed in accordance with Government Auditing Standards in considering Fiscal Service’s
internal control over financial reporting and compliance.




Washington, D.C.
December 20, 2013




                                                     2
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service:

We have audited, in accordance with the auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements, the Schedules of
Non-Entity Assets of the U.S. Department of the Treasury’s Bureau of the Fiscal Service (Fiscal Service)
as of September 30, 2013 and 2012, and the related Non-Entity Costs and Custodial Revenue (collectively,
Treasury Managed Accounts (TMA), hereinafter referred to as the Schedules) for the years then ended, and
the related notes to the Schedules, and have issued our report thereon dated December 20, 2013.

Internal Control Over Financial Reporting

In planning and performing our audit of the Schedules as of and for the year ended September 30, 2013, we
considered the Fiscal Service’s internal control over financial reporting (internal control) related to TMA to
determine the audit procedures that are appropriate in the circumstances for the purpose of expressing our
opinion on the Schedules, but not for the purpose of expressing an opinion on the effectiveness of the
Fiscal Service’s internal control related to TMA. Accordingly, we do not express an opinion on the
effectiveness of the Fiscal Service’s internal control related to TMA. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control related to TMA was for the limited purpose described in the first
paragraph of this section and was not designed to identify all deficiencies in internal control related to
TMA that might be material weaknesses or significant deficiencies and therefore, material weaknesses or
significant deficiencies may exist that were not identified. Given these limitations, during our audit we did
not identify any deficiencies in internal control that we consider to be material weaknesses. However, we
did identify certain deficiencies in internal control related to TMA described in Exhibit I that we consider
to be a significant deficiency in internal control related to TMA.




                                                                   3
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
The Fiscal Service’s Response to Findings

The Fiscal Service’s response to the significant deficiency identified in our audit is presented in a separate
Attachment to this report. The Fiscal Service’s response was not subjected to the auditing procedures
applied in the audit of the Schedules and, accordingly, we express no opinion on the response.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control related to TMA
and the result of that testing, and not to provide an opinion on the effectiveness of the Fiscal Service’s
internal control related to TMA. This report is an integral part of an audit performed in accordance with
Government Auditing Standards in considering the Fiscal Service’s internal control related to TMA.
Accordingly, this communication is not suitable for any other purpose.




Washington, D.C.
December 20, 2013




                                                      4
                                                                                           Exhibit I
                                    U.S. Department of the Treasury

                                       Bureau of the Fiscal Service

              Schedules of Non-Entity Assets, Non-Entity Costs, and Custodial Revenue

                  Significant Deficiency in Internal Control over Financial Reporting


Information Technology Controls Over Systems Managed by the Fiscal Service (Repeat Condition)

The Fiscal Service relies on an extensive array of information technology systems to manage the Non-
Entity Assets, Non-Entity Costs and Custodial Revenue (collectively, Treasury Managed Accounts
(TMA)). Internal controls over these operations are essential to ensure the confidentiality, integrity, and
reliability of critical data while reducing the risk of errors, fraud, and other illegal acts.

In our audit, we evaluated general information technology controls over key systems related to TMA.
General information technology controls are the structure, policies, and procedures that apply to an entity’s
overall computer systems. They include security management, access controls, configuration management,
segregation of duties, and contingency planning.

In our fiscal year 2013 audit, we noted that the Fiscal Service made progress in resolving identified
security weaknesses in its efforts to address this finding. Despite these improvements, our tests revealed
that the necessary policies and procedures to detect and correct information system control weaknesses
have not been consistently documented, implemented, or enforced. The Fiscal Service’s general
information technology controls do not provide reasonable assurance that:

1. An adequate security management program is in place;

2. Access to computer resources (i.e., data, equipment, and facilities) is reasonable and restricted to
   authorized individuals;

3. Changes to information system resources are authorized and systems are configured and operated
   securely and as intended; and

4. Incompatible duties are effectively segregated.

Collectively the conditions we observed and reported on could compromise the Fiscal Service’s ability to
prevent the possible disclosure of entity-sensitive information related to TMA to unauthorized individuals
or entities and ensure the reliability of key systems.

Because of the sensitivity of the information, we issued a separate sensitive but unclassified report to the
Commissioner of the Bureau of the Fiscal Service detailing the conditions identified and our
recommendations for corrective action.

Management’s Response:

Management has prepared an official response presented as a separate attachment to this report.
Management agreed with our finding and their comments were responsive to our recommendations.




                                                     5
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements, the Schedules of
Non-Entity Assets of the U.S. Department of the Treasury’s Bureau of the Fiscal Service (Fiscal Service)
as of September 30, 2013 and 2012, and the related Non-Entity Costs and Custodial Revenue (collectively,
Treasury Managed Accounts (TMA), hereinafter referred to as the Schedules) for the years then ended, and
the related notes to the Schedules, and have issued our report thereon dated December 20, 2013.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Schedules are free from material
misstatement, we performed tests of its compliance with certain provisions of laws and regulations related
to TMA, noncompliance with which could have a direct and material effect on the determination of
amounts reflected in the Schedules, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the result of that
testing, and not to provide an opinion on the Fiscal Service’s compliance. This report is an integral part of
an audit performed in accordance with Government Auditing Standards in considering the Fiscal Service’s
compliance. Accordingly, this communication is not suitable for any other purpose.




Washington, D.C.
December 20, 2013




                                                                  6
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                             U.S. DEPARTMENT OF THE TREASURY
                               BUREAU OF THE FISCAL SERVICE

               Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                   September 30, 2013 and 2012
                                          (In Thousands)


                                                                       2013             2012
Non-Entity Assets (Note 7)
  Intra-governmental:
     Fund Balance with Treasury (Note 2)                          $      684,649   $    1,255,123
     Due from the General Fund (Note 3)                                  800,545                0
     Accounts Receivable, Net (Note 4)                                   363,465          456,171
     Other                                                                   352              371
  Total Intra-governmental                                             1,849,011        1,711,665

  With the Public:
      Receivable on Deposit of Earnings, Federal Reserve System        3,079,432        2,281,778
      Accounts Receivable, Net (Note 4)                                      563              824
  Total With the Public                                                3,079,995        2,282,602
Total Non-Entity Assets                                           $    4,929,006   $    3,994,267

Commitments and Contingencies (Note 8)

Non-Entity Costs (Note 5)
  Credit Reform: Interest Paid on Uninvested Funds                $    8,488,116   $    9,923,016
  Judgments                                                            5,125,334        3,479,634
  Resolution Funding Corporation                                       2,503,313        2,628,312
  Restitution of Foregone Interest                                       820,049           58,870
  Public Broadcasting Fund, Corporation for Public Broadcasting          421,860          444,159
  Legal Services Corporation                                             381,585          355,590
  District of Columbia                                                   130,189          127,575
  Presidential Election Campaign Fund                                        600            (264)
  Federal Railroad Administration for AMTRAK
      Debt Restructuring                                                  55,045          309,619
  Travel Promotion Fund, Corporation for Travel Promotion                 94,900          100,000
  Moneys Erroneously Received and Covered                                 33,433           46,905
  Other                                                                   49,562           53,429
Total Non-Entity Costs                                            $   18,103,986   $   17,526,845

Custodial Revenue (Note 6)
  Deposit of Earnings, Federal Reserve System                     $   75,766,554   $   81,956,891
  Recoveries from Federal Agencies for Settlement of Claims
      from Contract Disputes                                            129,016           83,256
  General Fund Proprietary Receipts, Not Otherwise Classified           103,003          104,861
  Fees, Travel Promotion Fund, Corporation for
      Travel Promotion                                                   127,408          119,926
  Fines, Penalties, and Forfeitures, Not Otherwise Classified            475,025              921
  Other                                                                   38,314           32,431
  Total Cash Collections                                              76,639,320       82,298,286
  Accrual Adjustment                                                     704,681          749,980
Total Custodial Revenue                                           $   77,344,001   $   83,048,266




                    The accompanying notes are an integral part of these Schedules.
                                                     7
                           U.S. DEPARTMENT OF THE TREASURY
                             BUREAU OF THE FISCAL SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                 September 30, 2013 and 2012
                                         (In Thousands)


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  A. Reporting Entity

     The Bureau of the Fiscal Service (Fiscal Service) is a bureau of the U. S. Department of the
     Treasury (Treasury). The Fiscal Service’s mission is to improve the quality of government
     financial management. The Fiscal Service’s commitment and responsibility is to help its
     customers achieve success. The Fiscal Service does this by linking program and financial
     management objectives and by providing financial services, information, advice, and assistance to
     its customers. The Fiscal Service serves taxpayers, Treasury, Federal program agencies, and
     government policy makers.

     Non-Entity accounts are those Treasury Account Symbols (TAS) that the Fiscal Service holds but
     are not available to the Fiscal Service in its operations. For example, the Fiscal Service accounts
     for certain cash that the Federal Government collects and holds on behalf of the U. S.
     Government or other entities. These Schedules include the activity of Non-Entity TAS managed
     by the Fiscal Service. However, the Schedules of Non-Entity Assets, Non-Entity Costs and
     Custodial Revenue (the Schedules) do not include Non-Entity Operating Cash of the Federal
     Government (commonly known as Government-wide Cash).

     Some Non-Entity accounts receive appropriations for specific Federal programs. Some of the
     appropriations are permanent, indefinite appropriations. They are not subject to budgetary
     ceilings established by Congress. Both types of appropriations are used for payments to Federal
     program agencies and others.

     Some Non-Entity accounts receive cash collections. These types of accounts are miscellaneous
     receipt accounts. Examples of collections include interest payments, contributions, and
     collections of fines and penalties.

     The financial activities of the Fiscal Service are affected by, and are dependent upon, those of
     Treasury and the Federal Government as a whole. Thus, the accompanying schedules do not
     reflect the results of financial decisions and activities applicable to the Fiscal Service as if it was a
     stand-alone entity.

     On October 7, 2012, the Department of the Treasury bureaus formerly known as the Financial
     Management Service and the Bureau of the Public Debt were redesignated as the Bureau of the
     Fiscal Service.

  B. Basis of Preparation

     The Schedules have been prepared from the accounting records maintained by the Fiscal Service
     and are meant to report Non-Entity Assets, Non-Entity Costs and Custodial Revenue of the Fiscal
     Service in accordance with U.S. generally accepted accounting principles. Such principles require


                This information is an integral part of the accompanying Schedules.
                                                  8
                       U.S. DEPARTMENT OF THE TREASURY
                         BUREAU OF THE FISCAL SERVICE

      Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                               September 30, 2013 and 2012
                                       (In Thousands)


   the use of the accrual method of accounting to record transactions. Under the accrual method,
   revenues are recognized when earned and costs are recognized when a cost is incurred, without
   regard to receipt or payment of cash. These Schedules were prepared following accrual
   accounting.

   The standards used in the preparation of these Schedules are issued by the Federal Accounting
   Standards Advisory Board (FASAB), as the body authorized to establish U.S. generally accepted
   accounting principles for Federal government entities.

   Balances reflected on these Schedules may differ from those on financial reports prepared by the
   Fiscal Service pursuant to certain Office of Management and Budget (OMB) directives that are
   primarily used to monitor and control the Fiscal Service’s use of budgetary resources.

C. Use of Estimates in Preparing the Schedules

   The preparation of these Schedules, in conformity with U.S. generally accepted accounting
   principles, requires management to make estimates and assumptions. These estimates affect the
   reported amounts of non-entity assets at the date of the Schedules and the amounts of custodial
   revenues and non-entity costs during the reporting period for the Schedules. Actual results may
   differ from these estimates.

D. Fund Balance with Treasury

   The Fund Balance with Treasury (FBWT) is an asset account that reflects the available budget
   spending authority of Federal agencies. Collections and disbursements by agencies will,
   correspondingly, increase or decrease the balance in the account.

E. Due from the General Fund

   Due from the General Fund represents a receivable, or future funds required of the General Fund
   to repay restoration of foregone federal debt interest that was Accrued at the end of the fiscal
   year.

F. Accounts Receivable

   Accounts receivable is comprised of intra-governmental accounts (i.e., amounts due from other
   Federal agencies) and accounts with the public. Accounts with the public include amounts due
   from the Federal Reserve System. The Fiscal Service records an allowance for uncollectible
   accounts based on an analysis of individual accounts, a group based methodology, and a
   percentage of total receivables and historical collections at September 30.




             This information is an integral part of the accompanying Schedules.
                                               9
                          U.S. DEPARTMENT OF THE TREASURY
                            BUREAU OF THE FISCAL SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2013 and 2012
                                        (In Thousands)


G. Receivable on Deposit of Earnings, Federal Reserve System

    Federal Reserve Banks are required by the Board of Governors of the Federal Reserve System to
    transfer to the U.S. Treasury excess earnings, after providing for the cost of operations, payment
    of dividends, and reservation of an amount necessary to equate surplus with capital paid in. In the
    event of losses, or a substantial increase in capital, a Federal Reserve Bank will suspend its
    payments to the U.S. Treasury until such losses or increases in capital are recovered through
    subsequent earnings. Weekly payments to the U.S. Treasury may vary significantly. The
    Receivable on Deposit of Earnings, Federal Reserve System, represents the earnings due to
    Treasury as of September 30, but not collected by Treasury until after the end of the month.

H. Custodial Revenue

    Custodial revenue is initially recorded on a cash basis when amounts are deposited into receipt
    accounts. However, an adjustment is reflected on the Schedules at September 30 to accrue for
    collections in a fiscal year relating to prior year’s Non-Entity Accounts Receivable, and to
    account for other changes in the Non-Entity Accounts Receivable not resulting in a collection of
    cash in the current period (i.e., new reimbursements and changes in the allowance for
    uncollectible accounts).

I. Fiduciary Activities

    Fiduciary activities are the collection or receipt, and the management, protection, accounting,
    investment, and disposition by the U.S. Government of cash or other assets in which non-Federal
    individuals or entities have an ownership interest that the U.S. Government must uphold.
    Fiduciary cash and other assets are not assets of the U.S. Government and are not reported on the
    Schedules. They are reported in Note 7 to the Schedules.




               This information is an integral part of the accompanying Schedules.
                                                10
                           U.S. DEPARTMENT OF THE TREASURY
                             BUREAU OF THE FISCAL SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2013 and 2012
                                          (In Thousands)


NOTE 2. FUND BALANCE WITH TREASURY (FBWT)

  FBWT is funded through various sources depending on the specific legislative authority and purpose,
  and may be used only for specific purposes. Such amounts may be in escrow or other special
  accounts. These accounts are primarily funded through appropriations, collections, tax receipts, gifts
  to the Government, and settlements from foreign countries.

  Obligated balances are funds against which budgetary obligations have been incurred, but
  disbursements have not been made. The Unobligated Available balance is the amount of funds
  available to the Fiscal Service against which no claims have been recorded. The Unobligated
  Unavailable balance is the amount of unobligated funds remaining from appropriations that have
  expired, appropriations that have not been apportioned, authority that is not available pursuant to
  public law, and the amount of funds in deposit funds, clearing accounts and receipt accounts. FBWT
  as of September 30, 2013 and 2012 consisted of the following:

                                           2013
                                               Unobligated      Unobligated
Account Type                    Obligated        Available      Unavailable        Total
Appropriated Funds             $ 203,712        $ 269,594       $           -   $   473,306
Revolving Funds                         124            4,726                -         4,850
Trust Funds                              60               84               -             144
Other Fund Types                          -                -        206,349         206,349
Total                           $ 203,896      $    274,404     $   206,349      $ 684,649




                                           2012
                                               Unobligated      Unobligated
Account Type                    Obligated       Available       Unavailable        Total
Appropriated Funds               $ 648,557      $ 232,636            $ 2,137     $   883,330
Revolving Funds                         337           5,449                 -          5,786
Trust Funds                              58              65                 -            123
Other Fund Types                          -               -         365,884          365,884
Total                            $ 648,952      $ 238,150         $ 368,021      $ 1,255,123



  The fund balance, unobligated available supports the budgetary resources available except for a $310
  thousand as of September 30, 2013 and 2012, which is invested. The fund balance, unobligated
  unavailable for appropriated funds supports the budgetary resources not available. The fund balance,


                 This information is an integral part of the accompanying Schedules.
                                                  11
                          U.S. DEPARTMENT OF THE TREASURY
                            BUREAU OF THE FISCAL SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2013 and 2012
                                          (In Thousands)


  unobligated unavailable for other fund types includes only deposit funds and suspense accounts that
  do not have a budgetary impact.


NOTE 3. DUE FROM THE GENERAL FUND

     During fiscal year 2013, Treasury took certain extraordinary measures during a Debt Issuance
     Suspension Period (DISP), which did not expire until October 17, 2013. Treasury, on behalf of
     the U.S. Government and pursuant to Title 5 of the U.S. Code, used amounts collected for the
     Government Securities Investment Fund within the Federal Employees’ Retirement System
     (referred hereinafter as the Thrift Savings Plan, or TSP), the Civil Service Retirement and
     Disability Fund (Civil Service Fund), and the Postal Service Retiree Health Benefit Fund (Postal
     Benefits Fund) for the ongoing operating needs of the United States Government. In accordance
     with Title 5, as of September 30, 2013, foregone interest owed to the TSP, the Civil Service Fund,
     and the Postal Benefits Fund amounted to $800,545, which would be paid from the General Fund.


NOTE 4. ACCOUNTS RECEIVABLE, NET

  A. Intra-governmental Accounts Receivable, Net

     Intra-governmental accounts receivable principally includes amounts for which Federal agencies
     are required to reimburse the Treasury’s Judgment Fund for settlements paid or accrued on their
     behalf for contract disputes pursuant to the Contract Disputes Act of 1978 (CDA) and the
     Notification and Federal Employee Anti-discrimination and Retaliation Act of 2002 (No FEAR).
     While the CDA and No FEAR require Federal agencies reimburse the Judgment Fund for
     payments, CDA and No FEAR do not authorize the Fiscal Service to initiate collection action
     against those agencies. The Fiscal Service has historically had difficulty in collecting amounts
     owed under the CDA. An allowance for uncollectible accounts has been established to recognize
     losses on receivables that may not be collected under this program. As a result of the annual
     review of the uncollectible estimate for CDA, the allowance amount for FYs 2013 and 2012 was
     $940,000 and $930,000 respectively. During the individual account analysis, it was determined
     that four of the non-reimbursing agencies made up 83% and 77% of the intra-governmental
     accounts receivable balance for FYs 2013 and 2012, respectively. An allowance for uncollectible
     accounts has not been established for No FEAR Act receivables because an agency will be
     deemed non-compliant if it fails to reimburse or make timely arrangements for reimbursement;
     therefore, amounts owed are being collected. The activity in the allowance account each year is
     reflected in the “Accrual Adjustment” line in the custodial revenue section of the Schedules.




                This information is an integral part of the accompanying Schedules.
                                                 12
                          U.S. DEPARTMENT OF THE TREASURY
                            BUREAU OF THE FISCAL SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                 September 30, 2013 and 2012
                                         (In Thousands)


     Intra-governmental accounts receivable as of September 30, 2013 and 2012 consist of the
     following:

                                                                    2013               2012
       Claims for CDA and Fire Fighting                         $ 1,299,873        $ 1,383,671
       Claims for No FEAR                                             2,293              1,474
       Billing for Water and Sewage Service                           1,299              1,026
       Gross Accounts Receivable                                  1,303,465          1,386,171
       Less: Allowance for Uncollectable Accounts – Claims         (940,000)          (930,000)
       for CDA
       Accounts Receivable, Net                                  $       363,465   $       456,171

  B. Accounts Receivable with the Public, Net

     Accounts Receivable with the Public, exclusive of amounts due from the Federal Reserve
     System, as of September 30, 2013 and 2012, consist of the following:

                                                                          2013              2012
      U.S. Treasury Check Forgery Insurance Fund Receivables         $      974        $     1,172
      General Fund Proprietary Receipts                                     127                127
      Gross Accounts Receivable                                           1,101              1,299
      Less: Allowance for Uncollectable Accounts – U.S.                   (538)               (475)
      Treasury Check Forgery Insurance Fund
      Accounts Receivable, Net                                       $     563         $      824

     The U.S. Treasury Check Forgery Insurance Fund was established to expedite payments on
     claims and provide a dependable source of funds to meet the Federal Government’s responsibility
     for the payment of settlement checks issued to replace checks paid over forged endorsements.
     The receivable represents the amount due from banks that cashed the forged checks. The
     allowance for uncollectible accounts for Check Forgery is calculated by comparing losses to
     accounts receivable with the public. The percentage represents a portion of the current
     outstanding accounts receivable that are deemed uncollectible.


NOTE 5. NON-ENTITY COSTS

  Non-Entity Costs represent payments made on behalf of the Federal Government through various
  Treasury Managed Accounts (TMA) described below. In addition, Non-Entity Costs also include
  accruals for which the Fiscal Service has made a commitment to make a payment for claims existing
  as of September 30, 2013 and 2012.


                This information is an integral part of the accompanying Schedules.
                                                 13
                         U.S. DEPARTMENT OF THE TREASURY
                           BUREAU OF THE FISCAL SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2013 and 2012
                                        (In Thousands)


Credit Reform: Interest Paid on Uninvested Funds - Direct loan and loan guarantee financing
accounts receive various payments, repayments and fees, and make payments on defaults. When cash
receipts exceed outlays or when an agency does not disburse all of its borrowings, these balances are
held in the Treasury and earn interest. The interest earned on these balances is collected by each
federal agency from the Fiscal Service.

Judgments - The Fiscal Service processes payments from the Judgment Fund for certain judicially
and administratively ordered monetary awards against the United States, as well as amounts owed
under compromise agreements negotiated by the United States Department of Justice in settlement of
claims arising under actual or imminent litigation.

Resolution Funding Corporation - The Resolution Funding Corporation (REFCORP) account is
maintained pursuant to the Federal Home Loan Bank Act. The Fiscal Service provides payments to
REFCORP to cover the interest expenses of REFCORP.

Restitution of Foregone Interest - This account is used to restore “lost” interest to investing program
agencies such as the Civil Service Retirement and Disability Trust Fund, the Thrift Savings Fund, and
the Postal Service Retiree Health Benefits Fund after a Debt Issuance Suspension Period (debt crisis)
has ended. In certain situations the Secretary of the Treasury pays interest to the Government
Securities Investment Fund from the general fund of the Treasury when funds could not be invested
as a result of a debt issuance suspension. Please refer to Note 3 for additional detail on the Debt
Issuance Suspension Period.

Public Broadcasting Fund, Corporation for Public Broadcasting - This account is used to make
annual payments to the Corporation for Public Broadcasting pursuant to the enacted Public Law. The
payment is used to assist and facilitate the full development of public telecommunications in which
programs of high quality, diversity, creativity, excellence, and innovations will be made available to
public telecommunications.

Legal Services Corporation - This account is used to pay the Legal Services Corporation through
letter of credit drawdowns. The Legal Services Corporation distributes appropriated funds to local
nonprofit organizations that provide free civil legal assistance, according to locally determined
priorities, to people living in poverty. Congress chartered the corporation as a private, non-profit
entity outside of the Federal Government.

District of Columbia - Payments to the District of Columbia cover certain operations of the District of
Columbia. It includes payments for a program of management reform, for the administration and
operation of correctional facilities, and for construction and repair of the District’s infrastructure.

Presidential Election Campaign Fund - The Presidential Election Campaign Fund (PECF) is
maintained in accordance with the Internal Revenue Code. The purpose of the PECF is to defray the
qualified campaign expenses which were incurred by eligible presidential candidates or nominating
conventions. The PECF is a special fund financed through the collections of the $3 check off option


               This information is an integral part of the accompanying Schedules.
                                                14
                         U.S. DEPARTMENT OF THE TREASURY
                           BUREAU OF THE FISCAL SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2013 and 2012
                                        (In Thousands)


selected by taxpayers. These amounts are collected by the Internal Revenue Service and deposited
into the PECF.

The PECF is broken down into the following accounts: Presidential Primary Matching Payment
Account; Presidential Nominating Convention Account; and Presidential and Vice Presidential
Nominee Account (General Election). Each account is funded in accordance with budget estimates
provided by the Federal Election Commission (FEC). Payments from the PECF are made to qualified
recipients upon certification from the FEC.

Federal Railroad Administration for AMTRAK Debt Restructuring - This current, indefinite
appropriation was established pursuant to Public Law 110-432. The Passenger Rail Investment and
Improvement Act (PRIIA) of 2008, which provides that the Secretary of the Treasury, in consultation
with the Secretary of Transportation and the National Railroad Passenger Corporation (Amtrak), may
make agreements to restructure (including repay) Amtrak’s indebtedness, including leases,
outstanding as of October 16, 2008. The Secretary of the Treasury and Secretary of Transportation,
acting through the Federal Railroad Administration (FRA), in consultation with each other and
Amtrak, will advance payments reflecting the early buy-out options (EBO’s) on select leases entered
into by Amtrak.

Travel Promotion Fund, Corporation for Travel Promotion - This account was established pursuant
to the Travel Promotion Act of 2009, as amended (22 U.S.C. 2131). The act establishes the
Corporation for Travel Promotion as a non-profit entity which shall not be an agency of the United
States Government. For each of the fiscal years 2012 – 2015, the Secretary of the Treasury shall
transfer not more than $100 million to the Fund which shall be made available to the Corporation.
Transfers to the fund are based on collections of the Department of Homeland Security (DHS) visa
fees deposited during the previous fiscal year.

Moneys Erroneously Received and Covered - This account is used for expenditures made for
collections or other receipts erroneously deposited into Treasury. Collections represent receipts that
were not properly chargeable to any other appropriation.

Other - Other Non-Entity costs include the following payments: Payments to the States, Payments to
Agencies for Interest on Uninvested Funds, Payment to the Institute of American Indian and Alaskan
Native Culture and Arts Development, Payments from the U.S. Treasury Check Forgery Insurance
Fund, Payments to Individuals under Private and Public Relief Laws, Payments from the Partnership
Fund for Program Integrity Innovation, and Payments from Biomass Energy Development.




               This information is an integral part of the accompanying Schedules.
                                                15
                            U.S. DEPARTMENT OF THE TREASURY
                              BUREAU OF THE FISCAL SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2013 and 2012
                                          (In Thousands)


NOTE 6. COLLECTIONS OF CUSTODIAL REVENUE

  The Fiscal Service collects Custodial Revenue that is not related to its mission and distributes the full
  amount collected to the Treasury General Fund. For the years ended September 30, 2013 and 2012,
  cash collections were as follows:
                                                                                2013
                                                             October to      January to
                                                             December        September
                                                                2012            2013           Total
   Deposit of Earnings, Federal Reserve System               $21,808,481     $53,958,073     $75,766,554
   Recoveries from Federal Agencies for Settlement of
   Claims from Contract Disputes                                   7,742         121,274         129,016
   General Fund Proprietary Receipts                             181,420        (78,417)         103,003
   Fees, Travel Promotion Fund                                    26,282         101,126         127,408
   Fines, Penalties, and Forfeitures                             109,032         365,993         475,025
   Other                                                          18,314          20,000          38,314
   Total                                                     $22,151,271     $54,488,049     $76,639,320


                                                                                2012
                                                            October to       January to
                                                            December         September
                                                               2011             2012           Total
   Deposit of Earnings, Federal Reserve System              $15,854,675      $66,102,216     $81,956,891
   Recoveries from Federal Agencies for Settlement of
   Claims from Contract Disputes                                  37,657          45,599          83,256
   General Fund Proprietary Receipts                              28,912          75,949         104,861
   Fees, Travel Promotion Fund                                    24,249          95,677         119,926
   Fines, Penalties, and Forfeitures                                  19             902             921
   Other                                                          12,660          19,771          32,431
   Total                                                     $15,958,172     $66,340,114     $82,298,286




                 This information is an integral part of the accompanying Schedules.
                                                  16
                            U.S. DEPARTMENT OF THE TREASURY
                              BUREAU OF THE FISCAL SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2013 and 2012
                                          (In Thousands)


NOTE 7. SCHEDULE OF FIDUCIARY ACTIVITY

  The Fiscal Service accounts for certain cash that the Federal Government collects and holds on behalf
  of other entities. The Fiscal Service collects funds from foreign governments to make payments to
  U.S. nationals. Also, the Fiscal Service maintains an account – Unclaimed Moneys – whose sole
  purpose, as originally established, is to hold moneys in trust for rightful owners (as received by
  Government agencies from sources outside the Government). While these activities are not reported
  on the Schedules, they are required to be reported in the notes to financial statements.

  The following are the funds identified by the Fiscal Service as fiduciary activities along with activity
  for the years ended September 30, 2013 and 2012.

  Proceeds and Payment of Certain Unpaid Checks
  The authority for this deposit fund is cited in 31 U.S.C. 3328. Specifically, the Secretary of the
  Treasury shall not be required to pay a Treasury check issued on or after the effective date of 31
  U.S.C. 3328 unless it is negotiated to a financial institution within 12 months after the date on which
  the check was issued; and the Secretary shall not be required to pay a Treasury check issued before
  the effective date of 31 U.S.C. 3328 unless it is negotiated to a financial institution within 12 months
  after such effective date. If a check issued by a disbursing official and drawn on a designated
  depositary is not paid by the last day of the fiscal year after the fiscal year in which the check was
  issued, the amount of the check is withdrawn from the account with the depositary; and deposited in
  the Treasury. A claim for the proceeds of an unpaid check under this code may be paid from a
  consolidated account by this fund symbol.

  This deposit fund holds non-federal funds not paid to the public due to failure of cashing or
  depositing a check.

  Proceeds of Withheld Foreign Checks
  The authority for this deposit fund is cited in 31 U.S.C. 3329, 3330. Specifically, the Secretary of the
  Treasury shall prohibit a check or warrant drawn on public money from being sent to a foreign
  country from the United States or from a territory or possession of the United States when the
  Secretary decides that postal, transportation, or banking facilities generally, or local conditions in the
  foreign country, do not reasonably ensure that the payee will receive the check or warrant and will be
  able to negotiate it for full value. The account is maintained to receive and hold the proceeds of these
  checks.

  This deposit fund holds non-federal funds not paid to the public due to failure of cashing or
  depositing a check.

  War Claims Fund (Foreign Claims Settlement Commission)
  The War Claims Act of 1948, as amended, was designed to compensate individual American citizens
  and corporations for certain losses incurred by them in specific foreign countries during World War
  II. In order to compensate them, funds were to be made available by the proceeds from the sale of
  enemy assets that were seized under the Trading with the Enemy Act rather than through the
  appropriation process by the Congress.



                 This information is an integral part of the accompanying Schedules.
                                                  17
                         U.S. DEPARTMENT OF THE TREASURY
                           BUREAU OF THE FISCAL SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2013 and 2012
                                        (In Thousands)


Debt Management Operations
The authority for this deposit fund is cited in 31 U.S.C. 1321. The purpose of this deposit fund is to
account for non-federal collections and the disbursements of fees due to private collection agencies
and individuals.

Albanian Claims Fund
The Albanian Claims program is authorized under the Foreign Claims Settlement Act of 1949 (22
U.S.C. 1627). The statue authorizes special funds to be set up, authorizes investment of funds, and
gives directions on how claims are to be paid. On March 10, 1995, the United States and Albania
signed an agreement providing for the settlement of the United States national’s property claims
against Albania in exchange for a lump-sum payment by Albania to the United States of $2 million.
The $2 million was received by the United States on October 29, 1996, and was invested. This fund
invests in market-based bills.

Iraq Claims Settlement Fund
The authority for this deposit fund is cited in 22 U.S.C. 1627(a). The funds in this account are
designated to pay the awards certified by the Foreign Claims Settlement Commission under 22 U.S.C.
1624 for special circumstances by U.S. nationals. On November 14, 2012, the Legal Adviser of the
U.S. Department of State referred to the Foreign Claims Settlement Commission for adjudication a
category of claims within the scope of the Claims Settlement Agreement between the Government of
the United States of America and the Government of the Republic of Iraq, signed on September 2,
2010. The category of claims referred to the Foreign Claims Settlement Commission consists of
claims of U.S. nationals for compensation for serious personal injuries knowingly inflicted upon them
by Iraq.

Payment of Unclaimed Moneys
The authority for this deposit fund is cited in 31 U.S.C. 1322. The balance of this account should
represent only moneys which, when claimed, are unequivocally refundable. The sole purpose of the
account, as originally established, was to hold such moneys in trust for rightful owners (as received
by Government agencies from sources outside the Government). Accordingly, items cleared from
agency uninvested trust, revolving and deposit fund accounts for transfer to account 20X6133 must
meet all four of the following criteria: (1) amount is $25.00 or more, (2) a refund, upon claim, would
be absolutely justified, (3) there is no doubt as to legal ownership of the funds, and (4) a named
individual, business, or other entity can be identified with the item.

Libyan Claims Settlement Fund – Department of State, December 2008 Referral
On August 14, 2008, the United States and Libya signed a comprehensive claims settlement
agreement in Tripoli. The agreement is designed to provide rapid recovery of fair compensation for
American nationals with terrorism-related claim against Libya. The U.S. Congress has supported this
initiative by passing the Libya Claims Resolution Act (Public Law 110-301), which was signed into
law by the President on August 4, 2008. On March 23, 2009, the Foreign Claims Settlement
Commission, an independent quasi-judicial federal agency within the Department of Justice,
published notice in the Federal Register announcing the commencement of the first portion of its


               This information is an integral part of the accompanying Schedules.
                                                18
                         U.S. DEPARTMENT OF THE TREASURY
                           BUREAU OF THE FISCAL SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2013 and 2012
                                        (In Thousands)


Libya Claims Program, pursuant to the International Claims Settlement Act of 1949 and the
December Referral Letter for claims for physical injury. The deadline for filing claims under the
December Referral Letter was July 23, 2009. The Commission received approximately 50 claims
which it is currently processing for adjudication.

Libyan Claims Settlement Fund – Department of State, January 2009 Referral
On August 14, 2008, the United States and Libya signed a comprehensive claims settlement
agreement in Tripoli. The agreement is designed to provide rapid recovery of fair compensation for
American nationals with terrorism-related claim against Libya. The U.S. Congress has supported this
initiative by passing the Libya Claims Resolution Act (Public Law 110-301), which was signed into
law by the President on August 4, 2008. On July 7, 2009, the Foreign Claims Settlement
Commission, an independent quasi-judicial federal agency within the Department of Justice,
published notice in the Federal Register announcing the commencement of the second portion of its
Libya Claims Program, pursuant to the International Claims Settlement Act of 1949 and the January
Referral Letter for six additional categories of claims: (1) claims by U.S. nationals who were held
hostage or unlawfully detained in violation of international law; (2) claims of U.S. nationals for
mental pain and anguish who are living close relatives of a decedent whose death formed the basis of
a death claim compensated by the Department of State; (3) claims of U.S. nationals for compensation
for wrongful death, in addition to amounts already recovered under the Claims Settlement Agreement,
where there is a special circumstances in that the claimants obtained a prior U.S. court judgment in
the Pending Litigation awarding damages for wrongful death; (4) claims of U.S. nationals for
compensation for physical injury in addition to amount already recovered under the Commission
process initiated by the December 11, 2008 referral; (5) claims of U.S. nationals for wrongful death or
physical injury resulting from one of the terrorist incidents covered; and (6) commercial claims of
U.S. nationals. The deadline for filing claims under the January Referral Letter was July 7, 2010.

Kennedy Center Revenue Bond Sinking Fund
The authority for this deposit fund is cited in 98 Stat 1876. The Kennedy Center Revenue Bond
Sinking Fund is a fund set up to retire obligations of the Board of Trustees of the John F. Kennedy
Center for the Performing Arts. Annual deposits are received from the Kennedy Center by the first
day of January and deposited into the fund. Interest is received and reinvested on the Fund every May
and November. The fund matures in the year 2016. This fund invests in market-based bonds.

Iranian Claims Settlement Fund
This claims fund is authorized under 22 U.S.C. 1627. The U.S. made an agreement with the
Government of Iran providing for the lump-sum settlement of claims of United States nationals
against Iran of under $250,000 per claim which had been pending against Iran at the Iran-U.S. Claims
Tribunal at the Hague, Netherlands. The claimants had filed these claims through the Department of
State following the signing of the Algiers Accords by the United States and Iran on January 19, 1981.
In addition to the unresolved small claims, the agreement included other claims. Under the terms of
the agreement, Iran assented to the transfer of $105 million to the United States. The United States
and Iran submitted the Settlement Agreement to the Tribunal for approval. It was approved and
became effective on June 22, 1990. This fund invests in market-based bills.


               This information is an integral part of the accompanying Schedules.
                                                19
                         U.S. DEPARTMENT OF THE TREASURY
                           BUREAU OF THE FISCAL SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2013 and 2012
                                        (In Thousands)


German Democratic Republic Settlement Fund
Title VI of the Act [Public Law 94-542, approved October 18, 1976, 90 Stat. 2509 (22 U.S.C. 1644)]
authorized the Commission to receive and determine claims against the German Democratic Republic
for losses which arose from the nationalization, expropriation, or other taking by that government of
property interests of nationals of the United States. When the program was authorized, no funds were
available for payment of the awards issued by the Commission. The program was completed on May
16, 1981. The Department of State subsequently conducted negotiations with the German Democratic
Republic--and, after unification, with the Federal Republic of Germany--to obtain a claims settlement
to provide funds for the payment of awards. Those negotiations culminated in the signing of a
settlement agreement on May 13, 1992. This fund invests in market-based bills.

Vietnam Claims Fund
On February 25, 1986, the Foreign Claims Settlement Commission completed a program to determine
the validity and amount of claims of United States’ nationals against the Socialist Republic of
Vietnam arising from the nationalization or other taking of property on or after April 29, 1975, when
the Government of the Republic of Vietnam (South Vietnam) was overthrown. The program had been
authorized by Public Law 96-606, approved December 28, 1980 [94 Stat. 3534 (22 U.S.C. 1645)],
which added Title VII to the Act. The Commission made determinations on 534 claims, granting
awards to 192 claimants in the total principal amount of $99,471,983.51. This fund invests in market-
based bills.

Small Escrow Amounts
The authority for this deposit fund is cited in 31 U.S.C. 3513. The Fiscal Service uses this account to
record the following transactions: unresolved ACH (Automated Clearing House) issues and
unidentified remittances. Therefore, this deposit fund temporarily holds non-federal funds due to the
public.

Small Differences Account for Deposit and Check Adjustments
The authority for this deposit fund is cited in 31 U.S.C. 3513. This account was established in 1959 as
a deposit suspense account for adjusting small differences, all small differences $1.00 or less for
deposits and checks only. This account is used to adjust small differences relating to receipt and
payment transactions processed by depositaries, agencies, and disbursing offices.

Suspense, Net Interest Payments to States
The authority for this deposit fund is cited in 104 Stat 1061. The purpose of the account as stated in
the Cash Management Improvement Act of 1990 is to ensure greater efficiency, effectiveness, and
equity in the exchange of funds between the Federal government and the States. The funds in this
deposit fund are non-federal funds owed to the states.

Accounts Payable, Check Issue Underdrafts
The authority for this deposit fund is cited in 31 U.S.C. 3513. This account is used by the Fiscal
Service for refunds and adjustments due the public.



               This information is an integral part of the accompanying Schedules.
                                                20
                           U.S. DEPARTMENT OF THE TREASURY
                             BUREAU OF THE FISCAL SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                   September 30, 2013 and 2012
                                           (In Thousands)


                                   Schedule of Fiduciary Activity
                              For the Year Ended September 30, 2013


                                                                             All Other          Total
                                                         Unclaimed           Fiduciary        Fiduciary
                                                          Moneys               Funds            Funds

Fiduciary Net Assets, Beginning of Year                  $   508,829     $      310,451         $819,280

Increases
Contributions to Fiduciary Net Assets                          48,319           239,335          287,654
Investment Earnings                                                 -               667              667
Total Increases                                                48,319           240,002          288,321

Decreases
Withdrawals or Distributions of Fiduciary Net Assets          (6,015)         (441,281)        (447,296)
Total Decreases                                               (6,015)         (441,281)        (447,296)

Net Increase (Decrease) in Fiduciary Net Assets                42,304         (201,279)        (158,975)

Fiduciary Net Assets, End of Year                        $   551,133     $      109,172   $      660,305




                 This information is an integral part of the accompanying Schedules.
                                                  21
                           U.S. DEPARTMENT OF THE TREASURY
                             BUREAU OF THE FISCAL SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                   September 30, 2013 and 2012
                                           (In Thousands)


                                   Schedule of Fiduciary Activity
                              For the Year Ended September 30, 2012


                                                                             All Other           Total
                                                         Unclaimed           Fiduciary         Fiduciary
                                                          Moneys               Funds             Funds

Fiduciary Net Assets, Beginning of Year                  $   451,170     $      367,727    $      818,897

Increases
Contributions to Fiduciary Net Assets                          58,724           142,798           201,522
Investment Earnings                                                 -               669               669
Total Increases                                                58,724           143,467           202,191

Decreases
Withdrawals or Distributions of Fiduciary Net Assets          (1,065)         (200,743)         (201,808)
Total Decreases                                               (1,065)         (200,743)         (201,808)

Net Increase (Decrease) in Fiduciary Net Assets                57,659           (57,276)              383

Fiduciary Net Assets, End of Year                        $   508,829     $      310,451    $      819,280




                 This information is an integral part of the accompanying Schedules.
                                                  22
                              U.S. DEPARTMENT OF THE TREASURY
                                BUREAU OF THE FISCAL SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                   September 30, 2013 and 2012
                                           (In Thousands)



                                  Schedule of Fiduciary Net Assets
                                     As of September 30, 2013

                                             Unclaimed            All Other             Total Fiduciary
                                              Moneys           Fiduciary Funds              Funds

Fiduciary Assets
Fund Balance With Treasury                    $    551,133         $     100,144           $     651,277
Investments                                              -                16,978                  16,978
Other Assets                                             -                   407                     407
Total Fiduciary Assets                             551,133               117,529                 668,662

Liabilities
Less: Fiduciary Liabilities                              -                (8,357)                 (8,357)
Total Fiduciary Net Assets                    $    551,133         $     109,172           $     660,305


                                        Fiduciary Net Assets
                                      As of September 30, 2012



                                             Unclaimed            All Other             Total Fiduciary
                                              Moneys           Fiduciary Funds              Funds
Fiduciary Assets
Fund Balance With Treasury                    $    508,829          $    296,291            $    805,120
Investments                                              -                15,800                  15,800
Other Assets                                             -                   366                     366
Total Fiduciary Assets                             508,829               312,457                 821,286

Liabilities
Less: Fiduciary Liabilities                              -                (2,006)                 (2,006)
Total Fiduciary Net Assets                    $    508,829          $    310,451           $     819,280




                  This information is an integral part of the accompanying Schedules.
                                                   23
                            U.S. DEPARTMENT OF THE TREASURY
                              BUREAU OF THE FISCAL SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2013 and 2012
                                          (In Thousands)


NOTE 8. COMMITMENTS AND CONTINGENCIES

  A contingency is an existing condition, situation or set of circumstances involving uncertainty as to
  possible payment to Fiscal Service. The uncertainty will ultimately be resolved when one or more
  future events occur or fail to occur. For pending, threatened or unasserted litigation, a liability/cost is
  recognized when a past transaction or event has occurred, a future outflow or other sacrifice of
  resources is probable, and the related future outflow or sacrifice of resources can be reasonably
  estimated.

  There are numerous legal actions pending against the United States in Federal courts in which claims
  have been asserted that may be based on action taken by Fiscal Service. Management intends to
  vigorously contest all such claims. Management believes, based on information provided by legal
  counsel, that losses, if any, for the majority of these cases would not have a material impact on the
  Schedules. There are other cases that could result in significant payouts; however, legal counsel is
  unable to determine the probability of an unfavorable outcome, or determine an estimate or range of
  potential loss, for these matters, if any. No loss accrual has been made for these cases outstanding at
  September 30, 2013 or 2012.

  In addition, Fiscal Service manages several accounts that may be used for the payment of claims
  against other Federal Agencies. Such payments are reflected in the following Non-Entity cost
  accounts reflected in the Schedules: Judgments and Moneys Erroneously Received and Covered. At
  September 30, 2013 and 2012, such claims are in various stages of settlement.




                 This information is an integral part of the accompanying Schedules.
                                                  24
                          DE P AR T M E NT O F T H E T R E ASUR Y
                          BUR E AU O F T H E F I SC AL SE R VI C E
                                W ASH I NG T O N, DC 20227




                                           December 20, 2013



Mr. Andrew Lewis, Partner
KPMG, LLP
2001 M Street, NW
Washington, DC 20036

Dear Mr. Lewis:

This letter is in response to your reports on the Bureau of the Fiscal Service’s (Fiscal Service’s) (1)
Schedules of Non-Entity Government-wide Cash as of September 30, 2013 and 2012, and (2) Schedules
of Non-Entity Assets as of September 30, 2013 and 2012, and Non-Entity Costs and Custodial Revenue
for the years then ended.

We are pleased to receive an unqualified opinion on the Schedules and that no material weaknesses
related to internal control over financial reporting were noted in your report. We acknowledge the
significant deficiency and appreciate your feedback resulting from the audit of our security controls as we
continue to move forward to address this deficiency.

Fiscal Service is committed to having effective internal controls for our information technology (IT)
systems. Accordingly, we will continue to look for efficient and effective ways to improve and ensure the
consistent application of agency-wide security controls over all systems.



                                                Sincerely,




                                                    25
